                                                     U.S. OFFICE OF PERSONNEL MANAGEMENT
                                                           OFFICE OF THE INSPECTOR GENERAL
                                                                            OFFICE OF AUDITS




                                   Final Audit Report
Subject:

     Audit of the Federal Employees Health Benefits
   Program Operations at MVP Health Care – Central
                         Region


                                          Report No. 1C-M9-00-12-056

                                          Date: April 1, 2013




                                                      -- CAUTION --
This audit report has been distributed to Federal officials who are responsible for the administration of the audited program. This audit
report may contain proprietary data which is protected by Federal law (18 U.S.C. 1905). Therefore, while this audit report is available
under the Freedom of Information Act and made available to the public on the OIG webpage, caution needs to be exercised before
releasing the report to the general public as it may contain proprietary information that was redacted from the publicly distributed copy.
                                                     AUDIT REPORT



                                Federal Employees Health Benefits Program
                             Community-Rated Health Maintenance Organization
                                    MVP Health Care – Central Region
                                 Contract Number CS 2362 - Plan Code M9
                                          Schenectady, New York



              Report No. 1C-M9-00-12-056                                                  April 1, 2013
                                                                                    Date: _________________




                                                                                      Michael R. Esser
                                                                                      Assistant Inspector General
                                                                                        for Audits



                                                      -- CAUTION --
This audit report has been distributed to Federal officials who are responsible for the administration of the audited program. This audit
report may contain proprietary data which is protected by Federal law (18 U.S.C. 1905). Therefore, while this audit report is available
under the Freedom of Information Act and made available to the public on the OIG webpage, caution needs to be exercised before
releasing the report to the general public as it may contain proprietary information that was redacted from the publicly distributed copy.
                               EXECUTIVE SUMMARY




                      Federal Employees Health Benefits Program
                   Community-Rated Health Maintenance Organization
                          MVP Health Care – Central Region
                       Contract Number CS 2362 - Plan Code M9
                                Schenectady, New York


         Report No. 1C-M9-00-12-056                       Date: April 1, 2013

The Office of the Inspector General performed an audit of the Federal Employees Health
Benefits Program (FEHBP) operations at MVP Health Care – Central Region (Plan). The audit
covered contract years 2007 through 2010, and 2012. The audit was conducted at the Plan’s
office in Schenectady, New York.

This report questions $2,723,833 for inappropriate health benefit charges to the FEHBP in
contract years 2007, 2008, and 2012. The questioned amount includes $2,291,168 for defective
pricing and $432,665 for lost investment income. We found that the FEHBP rates were
developed in accordance with applicable laws, regulations, and the Office of Personnel
Management’s rules and regulations for contract years 2009 and 2010.

For contract years 2007, 2008, and 2012, the Plan did not apply the correct similarly sized
subscriber group (SSSG) discount to the FEHBP rates. In addition, in contract year 2007, the
Plan did not fully credit the FEHBP rates for a graduate medical expense/bad debt and charity
surcharge that was included in the community rates. Finally, in contract year 2012, the Plan
inappropriately loaded the FEHBP rates for a Health Dollars benefit rider.

The Plan could not provide original documentation to support the rate development of one of the
2008 SSSGs,                        Although we ultimately developed audited rates using
alternative methods, the FEHBP contract requires the Plan to retain and make available all
                                               i
records supporting its rate submissions for a period of six years after the end of the contract term
to which records relate.

Consistent with the FEHBP regulations and contract, the FEHBP is due $432,665 for lost
investment income, calculated through March 31, 2013, on the defective pricing findings. In
addition, the contracting officer should recover lost investment income on amounts due for the
period beginning April 1, 2013, until all defective pricing amounts have been returned to the
FEHBP.




                                                 ii
                                                          CONTENTS

                                                                                                                                  Page

     EXECUTIVE SUMMARY .............................................................................................. i

 I. INTRODUCTION AND BACKGROUND..................................................................... 1

II. OBJECTIVES, SCOPE, AND METHODOLOGY ......................................................... 3

III. AUDIT FINDINGS AND RECOMMENDATIONS ...................................................... 5

    Premium Rates ................................................................................................................... 5

    1. Defective Pricing ......................................................................................................... 5

    2. Lost Investment Income............................................................................................... 7

    3. Record Retention ......................................................................................................... 8

IV. MAJOR CONTRIBUTORS TO THIS REPORT ............................................................ 9

      Exhibit A (Summary of Questioned Costs)

      Exhibit B (Defective Pricing Questioned Costs)

       Exhibit C (Lost Investment Income)

       Appendix ( MVP Health Care – Central Region’s February 25, 2013, response to the draft
       report)
                      1. INTRODUCTION AND BACKGROUND


Introduction

We comp leted an audi t of the Federal Employees Health Benefits Program (FE HB P) operations
at :MVP He alth Ca re - Central Region (Plan). TIle audi t co vered co ntrac t years 2007 through
20 10, and 20 12, and wa s co nducted at the Plan ' s office in Sche nec tady, New York. Th e audi t
wa s conducted pursuant to the provisions of Co ntract CS 2362; 5 USc. Cha pter 89; and 5 Co de
of Federal Regulations (CFR) Chapter 1, Part 890 . The audit was performed by the Office of
Personnel Ma nagement 's (OPM) Office of the Inspector Gene ral (DIG), as established by the
Inspector Ge neral Ac t of 1978, as amended.

Background

The FE HEP wa s established by the Federal Employees Health Ben efi ts Ac t (Public Law 86 ­
382), enac ted a ll September 28 , 1959. The FEHBP wa s crea ted to provide health insuran ce
benefits for federal employees, annuitants, and dependents . The FEHBP is administered by
OPM ' s Healthcare and Insur an ce Office . Th e provisions of the Federal Employees He alth
Benefits Ac t are implemented by O PM through regulations co dified in Chapter I , Part 890 of
Title 5, CFR . Health insurance co verage is provided thr ough co ntracts with health insurance
carriers who provide servi ce benefits, indemnity ben efi ts, or comprehensive medical serv ices .

Community-rated ca rrie rs parti c ipating in the FEHBP are subject to various federal, state and
local laws, regul ations, and ordina nce s. While most carriers are subject to state j uri sdic tion,
many are further subj ect to the Health Ma intena nce Orga niza tion Ac t of 1973 (Public Law 93­
222), as amended (i.e., many co mm unity-rated carriers are federa lly qualified ). In addition,
parti cipation in the FE HB P subjects the carriers to the Fede ral Employees Health Benefits Ac t
and implementing regula tions promulgated by OPM.

The FE HB P should pay a market pri ce                           FEHBP Contr acts/ Members

                                                                        March 31

rate , which is de fined as the best rate
offered to either of the two groups closest             16,000
in size to the FEHBP. In co ntrac ting                  14,000
with co nun uniry-rated carrie rs, OPM
                                                        12,000
re lies on carrie r co mpliance with
                                                        10,000
appro priate laws and regula tions and,
consequently , does not negoti ate base                  8,000

rates . OPM negoti ations relate primaril y              6,000
to the level of co verage and other unique              ~OOO

fea tures of the FE HB P.                                2,000
                                                            o
The cha rt to the right shows the number
                                                   D Gon/facts
of FEHBP co ntrac ts and members
reporte d by the Plan as of March 3 1 for

                                                   I

each contract year audited.

The Plan has participated in the FEHBP since 1988 and provides health benefits to FEHBP
members in Central New York, including Broome, Cayuga, Chenango, Cortland, Delaware,
Herkimer, Jefferson, Lewis, Madison, Oneida, Onondaga, Oswego, Otsego, Tioga and Tompkins
counties. The last audit of the Plan conducted by our office was a rate reconciliation audit for
contract year 2011. There were no issues identified in that year.

The preliminary results of this audit were discussed with Plan officials at an exit conference and
in subsequent correspondence. A draft report was also provided to the Plan for review and
comment. The Plan’s comments were considered in preparation of this report and included, as
appropriate, in the Appendix.




                                                 2
                II. OBJECTIVES, SCOPE, AND METHODOLOGY

Objectives

The primary objectives of the audit were to verify that the Plan offered market price rates to the
FEHBP and to verify that the loadings to the FEHBP rates were reasonable and equitable.
Additional tests were performed to determine whether the Plan was in compliance with the
provisions of the laws and regulations governing the FEHBP.

Scope
                                                                     FEHBP Premiums Paid to Plan

We conducted this performance audit in
accordance with generally accepted government                       $50

auditing standards. Those standards require that
                                                                    $40




                                                      Millions
we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a                       $30
reasonable basis for our findings and conclusions
based on our audit objectives. We believe that                      $20

the evidence obtained provides a reasonable                         $10
basis for our findings and conclusions based on                            2007    2008    2009    2010
                                                                 Revenue   $43.6   $45.3   $48.0   $47.4
our audit objectives.

This performance audit covered contract years
2007, 2008, 2009, 2010 and 2012. For contract years 2007 through 2010, the FEHBP paid
approximately $184.3 million in premiums to the Plan, as shown on the chart above. The 2012
subscription income was not available at the time of this report.

OIG audits of community-rated carriers are designed to test carrier compliance with the FEHBP
contract, applicable laws and regulations, and OPM rate instructions. These audits are also
designed to provide reasonable assurance of detecting errors, irregularities, and illegal acts.

We obtained an understanding of the Plan’s internal control structure, but we did not use this
information to determine the nature, timing, and extent of our audit procedures. However, the
audit included such tests of the Plan’s rating system and such other auditing procedures
considered necessary under the circumstances. Our review of internal controls was limited to the
procedures the Plan has in place to ensure that:

        • The appropriate similarly sized subscriber groups (SSSG) were selected;

        • the rates charged to the FEHBP were the market price rates (i.e., equivalent to the best
          rate offered to the SSSGs); and

        • the loadings to the FEHBP rates were reasonable and equitable.

                                                 3
In conducting the audit, we relied to varying degrees on computer-generated billing, enrollment,
and claims data provided by the Plan. We did not verify the reliability of the data generated by
the various information systems involved. However, nothing came to our attention during our
audit testing utilizing the computer-generated data to cause us to doubt its reliability. We believe
that the available data was sufficient to achieve our audit objectives. Except as noted above, the
audit was conducted in accordance with generally accepted government auditing standards,
issued by the Comptroller General of the United States.

The audit fieldwork was performed at the Plan’s office in Schenectady, New York during August
2012. Additional audit work was completed at our offices in Jacksonville, Florida; Washington,
D.C.; and Cranberry Township, Pennsylvania.

Methodology

We examined the Plan’s federal rate submissions and related documents as a basis for validating
the market price rates. In addition, we examined the rate development documentation and
billings to other groups, such as the SSSGs, to determine if the market price was actually charged
to the FEHBP. Finally, we used the contract, the Federal Employees Health Benefits Acquisition
Regulations, and OPM’s Rate Instructions to Community-Rated Carriers to determine the
propriety of the FEHBP premiums and the reasonableness and acceptability of the Plan’s rating
system.

To gain an understanding of the internal controls in the Plan’s rating system, we reviewed the
Plan’s rating system policies and procedures, interviewed appropriate Plan officials, and
performed other auditing procedures necessary to meet our audit objectives.




                                                 4
               III. AUDIT FINDINGS AND                 RECOM~IE NDTIONS

Premium Rates

1. Defectin Pricing                                                                       $2.291.168

  TIle Certificates of Acc urate Pricing the Plan signed for contract year s 2007, 2008 and 20 12
  were defective. In acc ordance with federal regu lations, the FEHBP is therefore due a rate
  redu ction for the se years. Applicat ion of the defective pri cing rem edy shows that the FEHBP
  is due prem ium adj ustme nts totaling $2 ,29 1,168 (see Exh ibit A). We foun d that the FEHBP
  rates were develope d in acco rdance with applica ble laws, regulati ons, and OPM ' s rules and
  regulation s in contract years 2009 and 201 0.

  Carriers proposing rates to a PM are requ ired to submit a Cert ificate of Acc urate Pricin g
  certifyi ng that the prop osed subscription rates, subject to adjustments recognized by OPM, are
  market price rates. OPM regulations refer to a market price rate in conjunct ion with the rates
  offered to an SSSG. SSSGs are the Plan ' s two employer groups closest in subscriber size to
  the FEHBP. If it is found that the FEHBP was charged higher than the market price rate (i.e.,
  the best rate offered to an SSSG) , a condition of defective pricing exists, requiring a
  downward adjustment of the FEHBP premiums to the equivalent market price rate.

  200 7

  We agree with the Plan ' s selection 0                  and                      as SSSGs for
  c on~ analysis shows that                                       received       percent discount
  and _                    received a l i i p~rcent disc~unt. Tlus ~i scount was not app li~d to
  the FEHBP rates. Since the FEHBP IS entitled to a discount equivalent to the largest discoun t
  given to an SSSG, we applied th.         percent discount to the FEHBP' s rates.

                                percent discount is due to the Plan using two years of claims

  experience to rate the group, wi  1ereioneiof the
                                                 i  exierience
                                                          
 periods (4/1/2004 - 3/3 1/2005) was
  used in the prior rating year for                        Thi s methodology was not used for any
  other group durin g the scope 0 t te au tan t us was inconsistent with the Plan 's
  underwri ting practices. Using two years of claims experience data produ ces an incurred claim
  Per-Member-Per-Month (P:MPM) cost of _               . Using the Plan ' s consistent practice of the
  most rece nt one year of claims experience data roduces an incurred claim PMPM cost of
  _        . Acco rdingly, we recalculated                        rates using the mo~
  ~s data. In addition, the Plan incorrect y ca cu ate the trend factor for _
  _ _Tile Plan did not include the month of October 2005 when determining its trend factor
  ~ We recalculated the trend factor by includin g the month of October 2005 and
  determin ed that the total trend factor should be _




                                                  5

In reviewing the FEHBP' s rates, we noted that the Plan' s graduate medical expenseibad debt
charity (G:t\.1EIBDC) credit calculation did not include a credit for retenti on, which was
incorrectly charged to the FEHE P.

We calculated our audited FEHBP rates by applying      th.         percent
discount and correcting the GMEIBDC credit calcula tion to include retention . A compar ison
of our audited line 5 rates to the Plan' s reco nciled line 5 rates shows the FEHE P was
overcharged $1,654,279 in contract year 2007 (see Exh ibit B).

2008

We agree with the Plan ' s selection 0                                         as SSSGs for
contract y~ is shows that                                    did not receive a discount ;
however, _ received a                       percent discount . Tins discount was not applied
to the FEHEP rates. Since the FEHBP is entitl ed to a discount equivalent to the largest
discount given to an SSSG, we applied the   II per cent discount to the FEHBP' s rates.

                       •     percent discount is a result of the Plan 's inability to provide
adequat e documentation to support the rate calculation, the community rates. and the graduate
medical expense portion o ~d claims used to develop
_        rates. hI addition, _                      rates were based on estimates. We used
alternative methods to arrive at our audited rates by using documentation found in our prior
audit of the Plan .

We calculated the audited FEHBP rates by applying the . percent
discount . A compar ison of our audited line 5 rates to the Plan' s reconciled line 5 rates shows
the FEHEP was overcharged $545,987 in contract year 2008 (see Exhibit B).

2012

We agree with the Plan ' s selection of

receive a discount; however, _ received                 a_
                 as SSSGs for~OI 2 . Our a= sis shows that
                                                           percent discount . This discount
was not applied to the FEHEP rates. Since the FEHBP is entitled to a discount equivalent to
the largest discount given to an SSSG, we applied the . p ercent discount to the FEHBP' s
rates.

                      percent discount is due to the Plan erroneously excluding various
miscellaneous or "other" claim s from the experience period paid claim s total. These claims
were added back to the total paid claims amount used in our audited rates.

In reviewing the FEHBP' s rates, we noted that the Plan included the cost of rider "MED
531L" in the FEHBP rates. The rider represents a $50 Health Dollar benefit offered to
subscribers to spend on health , wellness and fitness programs . We reviewed the 20 12 FEHBP

                                               6
  brochure and determined that the Health Dollar benefit was listed in the Non-FEHBP benefits
  available to Plan members section of the brochure. As stated in the brochure, “the benefits in
  this section are not part of the FEHBP contract or premium”. The inclusion of this rider
  inappropriately increased the FEHBP premium rates. We removed the loading from our
  audited FEHBP rate development.

  We calculated the audited FEHBP rates by applying the     percent                 discount
  and removing the MED 531L rider. A comparison of our audited line 5 rates to the Plan’s
  reconciled line 5 rates shows the FEHBP was overcharged $90,902 in contract year 2012 (see
  Exhibit B).

  Plan’s Comments (see Appendix):

  The Plan has no issues or concerns with these findings.

  Recommendation 1

  We recommend that the contracting officer require the Plan to return $2,291,168 to the
  FEHBP for defective pricing in contract years 2007, 2008, and 2012. We also recommend
  that the contracting officer require the Plan to exclude the Health Dollar loading in the
  FEHBP rate development going forward.

2. Lost Investment Income                                                                   $432,665

  In accordance with the FEHBP regulations and the contract between OPM and the Plan, the
  FEHBP is entitled to recover lost investment income on the defective pricing findings in
  contract years 2007, 2008, and 2012. We determined that the FEHBP is due $432,665 for lost
  investment income, calculated through March 31, 2013 (see Exhibit C). In addition, the
  FEHBP is entitled to lost investment income for the period beginning April 1, 2013, until all
  defective pricing finding amounts have been returned to the FEHBP.

  FEHBAR 1652.215-70 provides that, if any rate established in connection with the FEHBP
  contract was increased because the carrier furnished cost or pricing data that was not
  complete, accurate, or current as certified in its Certificate of Accurate Pricing, the rate shall
  be reduced by the amount of the overcharge caused by the defective data. In addition, when
  the rates are reduced due to defective pricing, the regulation states that the government is
  entitled to a refund and simple interest on the amount of the overcharge from the date the
  overcharge was paid to the carrier until the overcharge is liquidated.

  Our calculation of lost investment income is based on the United States Department of the
  Treasury's semiannual cost of capital rates.




                                                  7
  Plan’s Comments (see Appendix):

  The Plan has no issues or concerns with the lost investment income finding.

  Recommendation 2

  We recommend that the contracting officer require the Plan to return $432,665 to the FEHBP
  for lost investment income, calculated through March 31, 2013. We also recommend that the
  contracting officer recover lost investment income on amounts due for the period beginning
  April 1, 2013, until all defective pricing finding amounts have been returned to the FEHBP.

3. Record Retention

  The Plan did not comply with the record retention clause of its FEHBP contract. After several
  requests, the Plan did not provide sufficient and appropriate documentation to support the
  2008                        rate development. Although we ultimately developed audited rates
  using alternative methods, the FEHBP contract requires the Plan to retain and make available
  all records supporting its rate submissions for a period of six years after the end of the contract
  term to which the records relate.

  Plan’s Comments (see Appendix):

  The Plan has no issues or concerns with the record retention finding.

  Recommendation 3

  We recommend that the contracting officer assess the maximum penalty allowed in the
  contract between OPM and the Plan for the violation of the record retention clause.

  In addition, we recommend that the contracting officer inform the Plan that:

     •   OPM expects it to fully comply with the record retention provision of the contract and
         all applicable regulations;

     •   it should maintain copies of all pertinent rating documents that show the factors and
         calculations the Plan uses in developing the actual rates for the FEHBP and the groups
         closest in size to the FEHBP for each unaudited year; and

     •   the applicable community-rated performance factors described in the FEHBAR
         1609.7101-2 will be enforced if information requested during audits is not provided.




                                                 8
              IV. MAJOR CONTRIBUTORS TO THIS REPORT

Community-Rated Audits Group

                , Auditor-in-Charge

                 , Auditor

                , Auditor


                  ., Chief

                 , Senior Team Leader




                                        9
                                                                        Exhibit A


                            MVP Health Care - Central Region
                             Summary of Questioned Costs



Defective Pricing Questioned Costs:


      Contract Year 2007                                  $1,654,279
      Contract Year 2008                                   $545,987
      Contract Year 2012                                    $90,902


              Total Defective Pricing Questioned Costs:                $2,291,168


      Lost Investment Income:                                           $432,665


                  Total Questioned Costs:                              $2,723,833
                                                                                  Exhibit B
                                                                                 Page 1 of 3
                      MVP Health Care - Central Region
                      Defective Pricing Questioned Costs

2007

High Option                               Self             Family
FEHBP Line 5 - Reconciled Rate
FEHBP Line 5 - Audited Rate

Biweekly Overcharge

To Annualize Overcharge:
   3/31/07 enrollment
   Pay Periods                                   26           26

Subtotal                                                            $1,459,860

Standard Option                           Self             Family
FEHBP Line 5 - Reconciled Rate
FEHBP Line 5 - Audited Rate

Biweekly Overcharge

To Annualize Overcharge:
   3/31/07 enrollment
   Pay Periods                                   26           26

Subtotal                                                             $194,419

Total 2007 Questioned Costs                                                      $1,654,279
                                                                                Exhibit B
                                                                               Page 2 of 3
                      MVP Health Care - Central Region
                      Defective Pricing Questioned Costs

2008

High Option                               Self             Family
 FEHBP Line 5 - Reconciled Rate
 FEHBP Line 5 - Audited Rate

Biweekly Overcharge

 To Annualize Overcharge:
    3/31/08 enrollment
    Pay Periods                                  26           26

Subtotal                                                            $485,013

Standard Option                           Self             Family
 FEHBP Line 5 - Reconciled Rate          $
 FEHBP Line 5 - Audited Rate

Biweekly Overcharge

 To Annualize Overcharge:
    3/31/08 enrollment
    Pay Periods                                  26           26
                                                       $
Subtotal                                                             $60,974

 Total 2008 Questioned Costs                                                   $545,987
                                                                                  Exhibit B
                                                                                 Page 3 of 3

                         MVP Health Care - Central Region
                         Defective Pricing Questioned Costs

2012

High Option                                      Self         Family
FEHBP Line 5 - Reconciled Rate
FEHBP Line 5 - Audited Rate

Biweekly Overcharge

To Annualize Overcharge:
   3/31/12 enrollment
   Pay Periods                                          26       26

Subtotal                                                               $79,224

Standard Option                                  Self         Family
FEHBP Line 5 - Reconciled Rate
FEHBP Line 5 - Audited Rate

Biweekly Overcharge

To Annualize Overcharge:
   3/31/12 enrollment
   Pay Periods                                          26       26


Subtotal                                                               $11,678

Total 2012 Questioned Costs                                                       $90,902

           Total Defective Pricing Questioned Costs:                             $2,291,168
                                                                                                                                        Exhibit C

                                                           MVP Health Care - Central Region
                                                               Lost Investment Income




                                                                                                                           As of
  Year                                        2007         2008         2009         2010        2011        2012      March 31, 2013   Total
Audit Findings:

1. Defective Pricing                         $1,654,279    $545,987            $0           $0          $0   $90,902               $0   $2,291,168


                        Totals (per year):   $1,654,279    $545,987            $0           $0         $0    $90,902               $0   $2,291,168
                       Cumulative Totals:    $1,654,279   $2,200,266   $2,200,266   $2,200,266 $2,200,266 $2,291,168       $2,291,168   $2,291,168

          Avg. Interest Rate (per year):        5.500%       4.938%       5.250%       3.188%     2.563%     1.875%           1.375%

       Interest on Prior Years Findings:             $0     $81,680     $115,514      $70,133    $56,382     $41,255           $7,877    $372,841

                  Current Years Interest:      $45,493      $13,479            $0           $0          $0     $852                $0     $59,824

   Total Cumulative Interest Calculated
            Through March 31, 2013:            $45,493      $95,159     $115,514      $70,133    $56,382     $42,107           $7,877    $432,665
                                                                                 AP PENDIX





                                                              HEALTH CARE
February 25 ,2013


                                                                  VIA e-ma il
u.s. Office of Personne l Management
Office of the Inspector Genera l
800 Cranberry Woods Dr, Suite 270
Cranberry Township , PA 16066


Re:	    :MVP Health Plan, Inc. Audits Retrospec tive/Reconciliation Rate Audit
        ~9:   2007,2008,2009,20 10,20 12
        Draft Report dated 12/14/2012

Dear:Mr.

Thank you for your dra ft audit report . :MVP has no issues or concerns with this report --­
DELETED BY DIG, NOT RELEVA NT TO THE REPORT--. As recommended, we will
exclude the loadin g for the Health Dollars from our 2013 reconcili ation and futur e rates
accordingly.


Sincerel y,




             , F.S.A, ~.A.AA
Associate Director of Actuarial
:MVP Health Plan, Inc.


Cc:	    David W. Oliker, President & CEO
                      OP~
